September 24, 2002

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

AL INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:     Audit Report – Highway Network Scheduling – Pacific Area
             (Report Number TD-AR-02-003)

                                      Background
On November 29, 2001, the Office of Inspector General (OIG) announced an audit of
highway network scheduling (Project Number 01NA023TR000). The announcement
responded to a request from the vice president, Network Operations Management. This
is the first in a series of reports. It focuses on the Pacific Area.




                 Highway contract trip terminating at a Postal Service plant.

                      Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway
contract routes, and to identify opportunities for cost savings. The vice president,
Network Operations Management, provided a list of plant-to-plant highway contract
routes he wanted considered for elimination or consolidation. A total of 1,325 trips were
Highway Network Scheduling – Pacific Area                                            TD-AR-02-003



operated under the 89 Pacific Area contracts. In preparation for our work, we provided
plant managers in the Pacific Area with the list of contracts we intended to audit. During
our work, we interviewed officials at headquarters and in the Pacific Area; reviewed
relevant Postal Service policies and procedures; visited 23 plants; interviewed
managers and employees; observed and photographed operations; analyzed data in
the Postal Service “Transportation Information Management Evaluation System,”
evaluated mail volume and critical entry times for First-Class and Priority Mail; and
analyzed all 1,325 trips. Work associated with the Pacific Area was conducted from
November 2001 through September 2002 in accordance with generally accepted
government auditing standards, and included such tests of internal controls as were
considered necessary under the circumstances. We discussed our findings with
appropriate management officials, and included their comments, where appropriate.

                                            Audit Results
Unnecessary Highway Contract Trips. Our audit revealed that the Postal Service
could save about $4.5 million over the term of existing Pacific Area highway contracts
by canceling 158 unnecessary trips. The trips could be terminated because trip mail
volume was low, and mail could be consolidated on other trips without negatively
affecting service. The cost savings we identified were net of contract cancellation fees
totaling approximately $730,000.

After we completed our analysis, we discussed the 158 trips with plant managers. The
managers had already initiated cancellation on 48 trips, agreed an additional 76 should
be cancelled, but disagreed with our assessment of 34. The trip cancellation proposals
are summarized below:


                                TRIP CANCELLATION PROPOSALS

                   CANCELLATION                   NUMBER                IDENTIFIED
                     CATEGORY                     OF TRIPS   APPENDIX     SAVING

        Cancellations initiated by plant
        managers after we provided the list of
        contracts we intended to audit.               48        A       $1,189,223

        Trips we identified during audit work
        with which plant managers agreed.             76        B        2,414,212

        Trips we identified during audit work
        with which plant managers disagreed.          34        C         896,982

        Total                                         158      NA       $4,500,417




                                                  2
Highway Network Scheduling – Pacific Area                                       TD-AR-02-003



The plant managers disagreed with the 34 proposals for various reasons—generally
that eliminating the trips would reduce operational flexibility. We revisited each of the
trips with the plant managers and reconsidered trip mail volume and service
requirements. We continue to believe the potential for trip cancellation without
jeopardizing service or operational flexibility and savings exists.

Recommendations

We recommend the vice president, Pacific Area Operations:

       1. Verify the actual cancellation of the 48 termination actions initiated by plant
          managers after receiving the list of contracts we intended to audit.

       2. Cancel the 76 trips, which plant managers agree are unnecessary.

       3. Reassess the 34 trips plant managers feel are necessary, cancel trips
          indicated by the reassessment as necessary, and document the reasons for
          retaining the other trips.

Management’s Comments

Management agreed with the intent of our recommendation. Regarding the 124 trips
we identified for elimination in recommendations 1 and 2, management stated they had
already eliminated 110 trips, and other trips were in the Pacific Area contracting office
pending final action. They also stated that most cancellations were as agreed during
our audit, but that they had made certain substitutions they considered appropriate.
Regarding the 34 trips we identified for elimination in recommendation 3, but with which
local plant managers disagreed, management stated they would reassess the
recommendations, and retain or eliminate the trips as appropriate. Finally,
management stated that at the completion of their work, they would notify the OIG of all
cancelled trips, and of the resulting cost savings. Management’s comments, in their
entirety, are included in Appendix D of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. We consider the
actions taken and planned sufficient to address the issues we identified.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                             3
Highway Network Scheduling – Pacific Area                                    TD-AR-02-003



We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    Susan M. Duchek




                                            4
Highway Network Scheduling – Pacific Area                                                                   TD-AR-02-003



 APPENDIX A. CANCELLATIONS INITIATED BY PLANT MANAGERS AFTER WE PROVIDED THE
                   LIST OF CONTRACTS WE INTENDED TO AUDIT
Highway                                                                             Estimated             Estimated
Contract                                                                            Contract   Indemnity Cost
Route         Trip Number       Origin/Destination                                  Costs      Fees       Savings
926L5         5 and 6           Santa Ana to Anaheim and Return                      $ 4,446     $      0 $    4,446
926L5         37 and 38         Santa Ana to Anaheim and Return                            743          0        743
92631         1 and 2           Santa Ana to Newport Beach, California and Return       25,650      4,275     21,375
92631         109 and 110       Santa Ana to John Wayne A/P* and Return                 12,918      2,153     10,765
926L8         3 and 4           Santa Ana to United Terminal and Return                 25,404      8,468     16,936
926L8         13 and 14         Santa Ana to United Terminal and Return                 25,743      8,581     17,162
926L8         31 and 32         Santa Ana to Worldway AMC,* California and Return       29,951      9,984     19,967
926L8         35 and 36         Santa Ana to Worldway AMC,* California and Return       36,080     12,027     24,053
92315         5 and 6           Not Available                                           98,758     16,460     82,298
92318         203 and 204       San Bernardino to IBC Building and Return              137,218     22,870    114,348
92318         221 and 222       San Bernardino to Mercury Building and Return          138,308     23,051    115,257
95010         3 &4, 5 & 6,      San Jose to San Francisco and Return                   519,552     57,728    461,824
              7&8, 21&22,
              33&34,
              27&28
90218         9 and 10          Marina to D-net and Return                              5,142         571          4,571
90218         11 and 12         Marina to D-net and Return                              5,142         571          4,571
90218         23 and 24         Marina to United Terminal and Return                   27,039       3,004         24,035
91316         1&2, and          Santa Clarita to Anaheim and Return;                  140,000      23,333        116,667
              3&4               Anaheim to Santa Clarita and Return
91318         5 and 6           Santa Clarita to Los Angeles and Return                 11,481      1,276         10,205
91319         59 and 60         Santa Clarita to Van Nuys Hub and Return               168,000     28,000        140,000
Total          48 Trips                                                             $1,411,575   $222,352     $1,189,223
 *Airport (A/P).
  Airport Mail Center (AMC).




                                                              5
Highway Network Scheduling – Pacific Area                                                           TD-AR-02-003



                          APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                    WHICH AREA MANAGERS AGREED
Highway                                                                       Estimated               Estimated
Contract                                                                      Contract    Indemnity   Cost
Route           Trip Number         Origin/Destination                        Costs       Fees        Savings
926L5           1 and 2             Santa Ana to Los Angeles and Return         $ 10,345      $     0   $ 10,345
926L5           13 and 14           Santa Ana to Anaheim and Return                 4,331           0       4,331
926L5           31 and 32           Santa Ana to Anaheim and Return                 5,078           0       5,078
926L5           39 and 40           Santa Ana to Anaheim and Return                 4,331           0       4,331
926L5           47 and 48           Santa Ana to Anaheim and Return                 3,588           0       3,588
92631           9 and 10            Santa Ana to Newport Beach and Return          26,328       4,388      21,940
92631           13 and 14           Santa Ana to Newport Beach and Return          30,900       5,150      25,750
92631           17 and 18           Santa Ana to Newport Beach and Return          25,650       4,275      21,375
92631           103 and 104         Santa Ana to John Wayne A/P* and Return        12,918       2,153      10,765
92631           117 and 118         Santa Ana to John Wayne A/P* and Return        19,088       3,181      15,907
926L8           1 and 2             Santa Ana to Worldway AMC* and Return          36,080      12,027      24,053
926L8           5 and 6             Santa Ana to OAS Bldg and Return               36,080      12,027      24,053
926L8           29 and 30           Santa Ana to Worldway AMC* and Return          29,951       9,984      19,967
926L2           5 and 6             Santa Ana to Ontario AMF* and Return          101,024       8,419      92,605
926L2           9 and 10            Santa Ana to Ontario AMF* and Return          101,792       8,483      93,309
926L7           3 and 4             Santa Ana to Pasadena and Return               91,264      15,211      76,053
93213           3 and 4             Bakersfield to Fresno and Return               15,375       5,125      10,250
94012           13 and 14           San Francisco to North Bay and Return          67,980      11,330      56,650
94514           1 and 2             Oakland to Stockton and Return                185,733      20,637     165,096
94515           2 or 6 or 10        North Bay to Oakland                           13,233       1,470      11,763
95612           1 and 2             Sacramento AMF* to San Francisco AMC*         171,536      28,589     142,947
                                    Temp and Return
95612           11 and 12           Sacramento AMF* to San Francisco AMC*        142,490      23,748      118,742
                                    Temp and Return
95612           21 and 22           Sacramento AMF* to San Francisco AMC*        129,688      21,615      108,073
                                    Temp and Return


                                                              6
Highway Network Scheduling – Pacific Area                                                             TD-AR-02-003



                          APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                    WHICH AREA MANAGERS AGREED
Highway                                                                         Estimated               Estimated
Contract                                                                        Contract    Indemnity   Cost
Route           Trip Number         Origin/Destination                          Costs       Fees        Savings
95619           5 and 6             Sacramento AMF* to San Francisco AMC*           399,540      33,295     366,245
                                    Temp and Return
95620           57 and 58           Worldway AMC* to Mojave and Return             245,328      20,444      224,884
928L2           19 and 20           Anaheim to Worldway AMC* and Return              9,589           0        9,589
928L2           2                   Worldway AMC* to Anaheim                         4,718           0        4,718
91016           5 and 6             Pasadena to Los Angeles and Return              34,044       5,674       28,370
91318           5 and 6             Santa Clarita to Los Angeles and Return         15,258       2,543       12,715
91318           9 and 10            Santa Clarita to Los Angeles and Return        107,102      17,850       89,252
91319           19 and 20           Santa Clarita to Worldway AMC* and Return       78,476      13,079       65,397
91319           39 and 40           Santa Clarita to Worldway AMC* and Return       49,524       8,254       41,270
90714           21 and 22           Long Beach to Worldway AMC* and Return          85,815       9,535       76,280
90714           13 and 14           Long Beach to Worldway AMC* and Return          85,815       9,535       76,280
90713           17 and 18           Long Beach to Los Angeles and Return            46,260       5,140       41,120
91712           19 and 20           Industry to Worldway AMC* and Return            92,034      10,226       81,808
91712           25 and 26           Industry to Worldway AMC* and Return            92,034      10,226       81,808
91712           15 and 16           Industry to Worldway AMC* and Return           107,829      11,981       95,848
91713           9 and 10            Industry to Anaheim and Return                  61,998      10,331       51,657

Total           76 Trips                                                        $2,784,363    $370,151   $2,414,212
*Airport (A/P).
 Airport Mail Center (AMC).
 Airport Mail Facility (AMF).




                                                              7
Highway Network Scheduling – Pacific Area                                                      TD-AR-02-003




                          APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                   WHICH AREA MANAGERS DISAGREED
Highway                                                                    Estimated             Estimated
Contract         Trip                                                      Contract   Indemnity Cost
Route            Number            Origin and Destination                  Costs      Fees       Savings
95616            2                 Stockton to Sacramento                   $ 65,133     $ 7,237  $ 57,896
95620            53 and 54         Worldway AMC* to Mojave and Return         203,224     16,935    186,289
92830            7 and 8           Anaheim to Corona and Return                35,064      5,844     29,220
92830            11 and 12         Anaheim to Citrus Annex and Return          39,686      6,614     33,072
92830            15 and 16         Anaheim to Corona and Return                38,982      6,497     32,485
92830            201 and 202       Anaheim to Norco and Return                 38,178      6,363     31,815
92830            207 and 208       Anaheim to Norco and Return                 38,178      6,363     31,815
92830            212               Industry to Anaheim                         22,638      3,773     18,865
92830            22                Industry to Anaheim                         22,638      3,773     18,865
92830            2 or 4 or 6       Citrus Annex to Anaheim                     19,088      3,181     15,907
91016            117 and 118       Pasadena to Worldway AMC* and Return        68,498     11,416     57,082
91314            5 and 6           Santa Clarita to Santa Ana and Return       24,922      4,154     20,768
91315            5 and 6           Santa Clarita to Oxnard and Return          15,912      1,768     14,144
91317            5 and 6           Santa Clarita to Industry and Return        20,708      3,451     17,257
91317            9 and 10          Santa Clarita to Pasadena and Return        14,540      2,423     12,117
90218            21 and 22 or      Marina to Worldway AMC* and Return          30,729      3,414     27,315
                 25 and 26
90217            7 and 8           Marina to Los Angeles and Return           58,347       6,483      51,864
90216            1 and 2 or        Marina to Santa Ana and Return            125,829      13,981     111,848
                  3 and 4
91714            3 and 4           Industry to San Diego and Return          154,030      25,672     128,358

Total           34 Trips                                                   $1,036,324   $139,342    $896,982
*Airport Mail Center (AMC).




                                                               8
Highway Network Scheduling – Pacific Area            TD-AR-02-003



                 APPENDIX D. MANAGEMENT’S COMMENTS




                                            9
